                               Fiscal Year 2004
                     Statutory Review of Restrictions on
                       Directly Contacting Taxpayers

                                  February 2004

                       Reference Number: 2004-40-059




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          February 24, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - Fiscal Year 2004 Statutory Review of
                              Restrictions on Directly Contacting Taxpayers
                              (Audit # 200440002)


       This report presents the results of our review to determine if the Internal Revenue
       Service (IRS) complied with legal guidelines dealing with directly contacting taxpayers
       and their representatives as set forth in Internal Revenue Code Sections (I.R.C. §§)
       7521(b)(2) and (c) (2000).
       In summary, we could not determine if the IRS fully complied with I.R.C. §§ 7521(b)(2)
       and (c) requirements when directly contacting taxpayers and their representatives. This
       is the sixth year in which we have reported our inability to give an opinion on the IRS’
       compliance with the restrictions of I.R.C §§ 7521(b)(2) and (c).
       The Treasury Inspector General for Tax Administration is required under
       I.R.C. § 7803(d)(1)(A)(ii) (2000) to annually evaluate the IRS’ compliance with the direct
       contact provisions of the law. IRS management information systems do not separately
       record or monitor direct contact requirements, and the Congress has not explicitly
       required the IRS to do so. Furthermore, we do not recommend the creation of a
       separate tracking system. Accordingly, we made no recommendations in this report.
       Management’s Response: IRS management has reviewed the draft report and
       provided their concurrence with its contents via email. However, since there were no
       recommendations requiring a formal response, the IRS has agreed that the report will
       be issued with no formal written response.
       Copies of this report are also being sent to IRS managers affected by the report results.
       Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips,
                                         2


Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 927-0597.
                           Fiscal Year 2004 Statutory Review of Restrictions
                                   on Directly Contacting Taxpayers




                                              Table of Contents


Background ................................................................................................ Page 1
Compliance With Statutory Requirements for Restrictions on Directly
Contacting Taxpayers Cannot Be Determined ........................................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 3
Appendix II – Major Contributors to This Report......................................... Page 4
Appendix III – Report Distribution List ........................................................ Page 5
             Fiscal Year 2004 Statutory Review of Restrictions
                     on Directly Contacting Taxpayers

                          The Omnibus Taxpayer Bill of Rights1 created a number of
Background                safeguards to protect taxpayers being interviewed by an
                          Internal Revenue Service (IRS) employee as part of an
                          examination or collection action. Specifically, IRS
                          employees are required to:
                              •   Stop a taxpayer interview (unless the interview is
                                  required by court order) whenever a taxpayer
                                  requests to consult with a representative (someone
                                  who is permitted to represent taxpayers before the
                                  IRS).
                              •   Obtain their immediate supervisor’s approval to
                                  contact the taxpayer instead of the representative if
                                  the representative is responsible for unreasonably
                                  delaying the completion of an examination or
                                  collection action.
                          The provisions were created to protect the rights of
                          taxpayers who are interviewed by an IRS employee as part
                          of an examination or collection action. A taxpayer can file a
                          civil suit against the IRS if an IRS employee intentionally
                          disregards these provisions by denying a taxpayer the right
                          to appropriate representation.
                          The Treasury Inspector General for Tax Administration
                          (TIGTA) is required under Internal Revenue Code Section
                          (I.R.C. §) 7803(d)(1)(A)(ii) (2000) to annually evaluate the
                          IRS’ compliance with the direct contact provisions of
                          I.R.C. §§ 7521(b)(2) and (c) (2000).
                          This review was performed at the IRS National
                          Headquarters in Washington, D.C., in the Small
                          Business/Self-Employed Division and the Office of the
                          National Taxpayer Advocate, during the period
                          October 2003 through January 2004. The audit was
                          conducted in accordance with Government Auditing
                          Standards. Detailed information on our audit objective,
                          scope, and methodology is presented in Appendix I. Major
                          contributors to the report are listed in Appendix II.




                          1
                           Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in
                          scattered sections of 5 U.S.C. and 26 U.S.C.).
                                                                                        Page 1
                       Fiscal Year 2004 Statutory Review of Restrictions
                               on Directly Contacting Taxpayers

                                    We could not determine whether IRS employees followed
Compliance With Statutory           proper procedures to stop an interview if the taxpayer
Requirements for Restrictions on
                                    requested to consult with a representative. Neither the IRS
Directly Contacting Taxpayers
                                    nor we could readily identify cases in which the taxpayer
Cannot Be Determined                requested a representative or the IRS contacted the taxpayer
                                    directly and bypassed the representative.
                                    Current IRS management information systems do not
                                    separately record or monitor cases in which taxpayers had
                                    requested to consult with a representative or in which IRS
                                    employees bypassed taxpayer representatives and contacted
                                    the taxpayers directly. In addition, there is no legal
                                    requirement for the IRS to develop a separate system that
                                    records or monitors cases involving these two procedures.
                                    Taxpayer complaints that allege IRS employees bypassed
                                    their representatives and contacted them directly are tracked
                                    by the TIGTA Office of Investigations (OI). The TIGTA OI
                                    closed six direct contact complaint and investigation cases
                                    between January and November 2003. Our review of these
                                    cases showed that, in all six cases, the IRS employees did
                                    not violate the direct contact provisions of the I.R.C.
                                    As a result, we do not recommend the creation of a separate
                                    tracking system and are making no recommendations in this
                                    report. This is the sixth year in which we have reported our
                                    inability to give an opinion on the IRS’ compliance with the
                                    I.R.C. restrictions on direct contact.
                                    Management’s Response: A Small Business/Self-Employed
                                    Division official concurred with the conclusions detailed in
                                    our draft report, but declined the opportunity to provide a
                                    formal written response.




                                                                                          Page 2
                         Fiscal Year 2004 Statutory Review of Restrictions
                                 on Directly Contacting Taxpayers

                                                                                                Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS)
complied with legal guidelines dealing with directly contacting taxpayers and their
representatives as set forth in Internal Revenue Code Sections 7521(b)(2) and (c) (2000). To
accomplish this objective, we:

I.      Interviewed an executive in the Small Business/Self-Employed Division to determine if
        the IRS has implemented or plans to implement a system to track cases in which
        taxpayers have requested to consult with a representative or in which an IRS employee
        bypassed a representative.
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        (TIGTA) personnel responsible for the Taxpayer Advocate Management Information
        System (TAMIS),1 the Executive Control Management System (ECMS),2 and the
        Performance and Results Information System (PARIS)3 to determine if there is a system
        or a plan for a system to track taxpayer complaints relating to violations of the direct
        contact provisions of the law.
        A. Identified six direct contact cases (two complaints and four investigations) closed by
           the TIGTA Office of Investigations (OI) during the period January 28, 2003, through
           November 24, 2003.
        B. Obtained and reviewed the closed TIGTA OI complaint and investigation files to
           determine their validity and what actions were taken by the IRS as a result of the
           complaints and investigations.




1
  The TAMIS is an electronic database and case inventory control system used by Taxpayer Advocate Service
employees.
2
  The ECMS is an application used by the IRS to assign, control, and track information and correspondence.
3
  The PARIS is a management information system that provides the TIGTA with the ability to manage and account
for the thousands of complaints received and investigations initiated annually.
                                                                                                       Page 3
                     Fiscal Year 2004 Statutory Review of Restrictions
                             on Directly Contacting Taxpayers

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Kristi Larson, Senior Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 4
                    Fiscal Year 2004 Statutory Review of Restrictions
                            on Directly Contacting Taxpayers

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
   GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 5
